No.

IN THE
SUPREME COURT OF THE UNITED STATES

Susanne Stephanie Nikola Kynast _PETITIONER
(Your Name)
VS.
State of Florida

— RESPONDENT(S)

PROOF OF SERVICE
Susanne Stephanie Nikola Kynast
do swear or declare that on this date,
I,
January 25
, 90 21 ; as required by Supreme Court Rule 29 I have

served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The Honorable Judge Ruth Becker. Countv Judge of Monroe County. Sixteenth JudiciaLCjrcuit,
Marathon Courthouse, 3117 Overseas Highway, Marathon, Florida 33050
Kayla Heather McNab, Office of the Attorney General, Criminal Appeals Division
Suncrest International Center,1 SE 3rd Ave Suite 900, Miami, FL33131

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 25

, 2021_
5.

■— •-I ‘--i o.

j-

(Signature)

